DEPARTMENT OF HOMELAND SECURITY

     Office of Inspector General


     Technical Security Evaluation of 

            DHS Activities at 

       Dulles International Airport 


         Unclassified Summary 





OIG-07-25                     January 2007
                                                        Office of Inspector General
                                                        U.S. Department of Homeland Security
                                                        Washington, DC 20528




    Technical Security Evaluation of DHS Activities at Dulles International Airport

                            Unclassified Summary
                                (OIG-07-25)
________________________________________________________________________

We evaluated the Department of Homeland Security (DHS) and its organizational
components’ security programs at Dulles International Airport. Specifically, we assessed
the strengths and weaknesses of security controls over DHS information technology
assets at this airport. Our objective was to determine whether the DHS components at the
airport complied with the department’s technical and information security policies and
procedures. This evaluation included onsite verification and validation of operational
security controls, evaluation of technical security controls implemented on information
technology devices, and also reviews of applicable DHS policies, procedures, and other
appropriate documentation.

We briefed the DHS Chief Information Security Officer and DHS components on the
results of our evaluation. We also made nine recommendations to improve information
technology security at Dulles International Airport. DHS concurred with our
recommendations and directed the components to address the findings.
                       FOR OFFICIAL USE ONLY




Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector
General (OIG) at (202) 254-4100; fax your request to (202) 254-4285; or,
visit the OIG Website at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse, or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or, email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.




                       FOR OFFICIAL USE ONLY
